AUDIT OF PROCUREMENT OF PROFESSIONAL
  SERVICES FROM THE FEDERAL SUPPLY
 SERVICE’S MULTIPLE AWARD SCHEDULES
   REPORT NUMBER A020243/F/A/V03009

             JULY 31, 2003
Date:        July 31, 2003

Reply to     Regional Inspector General for Auditing
Attn of:     Acquisition Programs Audits Office (JA-A)

Subject:     Audit of Procurement of Professional Services from the Federal
             Supply Service’s Multiple Award Schedules
             Report Number A020243/F/A/V03009

To:          Donna D. Bennett
             Commissioner, Federal Supply Service (F)

This report presents the results of our review of Procurement of Professional
Services from the Federal Supply Service’s Multiple Award Schedules program.
From the 1,976 responses received pertaining to services task orders only one-
third were priced on a firm-fixed price basis. Eighty-one percent of task orders
issued under Blanket Purchase Agreements reflected better pricing. FSS should
continue to assist customer agencies through training and marketing efforts,
particularly in areas of competition, price analysis and contract types.

If you have any questions regarding this report, please contact Henry Noll, Jr.,
Regional Inspector General for Auditing, or me on (703) 603-0189.




William D. Anthony
Audit Manager
Acquisition Programs Audit Office (JA-A)
              AUDIT OF PROCUREMENT OF PROFESSIONAL SERVICES
                     FROM THE FEDERAL SUPPLY SERVICE’S
                         MULTIPLE AWARD SCHEDULES
                      REPORT NUMBER A020243/F/A/V03009


                                             TABLE OF CONTENTS


EXECUTIVE SUMMARY .....................................................................................................i

INTRODUCTION
       Background ................................................................................................................1
       Objective, Scope and Methodology............................................................................2

SURVEY RESULTS
     Basis of Pricing for Task Orders ...................................................................................4
          Firm-Fixed Price or Ceiling/Not to Exceed Price (Time-and-Materials)...................4
     Task Order Pricing ........................................................................................................5
          Obtaining Better Pricing on Task Orders Exceeding the Maximum Order
          Threshold ................................................................................................................6
          Using Blanket Purchase Agreements to Obtain Better Pricing ...............................6
          Pricing with Large Dollar Task Orders.....................................................................7

CONCLUSION ....................................................................................................................7

MANAGEMENT COMMENTS ............................................................................................8

MANAGEMENT CONTROLS .............................................................................................8

APPENDICES
        Customer Questionnaire ........................................................................................ A-1
        FSS Commissioner’s Response ............................................................................ B-1
        Report Distribution .................................................................................................C-1
          AUDIT OF PROCUREMENT OF PROFESSIONAL SERVICES
                 FROM THE FEDERAL SUPPLY SERVICE’S
                     MULTIPLE AWARD SCHEDULES
                  REPORT NUMBER A020243/F/A/V03009

                                EXECUTIVE SUMMARY
Purpose

To obtain a greater in depth knowledge of how customers are using professional
services contracts under the General Service Administration’s (GSA), Federal Supply
Service (FSS) Multiple Award Schedule (MAS) Program, we distributed surveys to
contracting officials in four customer agencies. The 5,589 surveys sought information on
whether task orders were placed on a ceiling/not to exceed price (time-and-materials)
basis or a firm-fixed price basis and other limited information including whether
additional discounts were obtained from the established GSA price.

Background

Service procurements from FSS’ MAS program have increased in recent years from
$6.9 billion in fiscal year 2000 to $12.7 billion in fiscal year 2002. Audit reports issued by
the General Accounting Office, Department of Defense Office of Inspector General and
National Aeronautics and Space Administration Office of Inspector General have
identified problems and concerns with task order competition and pricing. Additionally,
several recent legislative and regulatory developments relate to and may impact aspects
of MAS services purchases, specifically the use of time-and-materials task orders for
such purchases.

Survey Results

We received 1,976 responses pertaining to services task orders, totaling $2.4 billion.
Only one-third of these orders were priced on a firm-fixed price basis. Twenty-nine
percent reflected prices better than established GSA prices. Although our survey results
show that agencies are not frequently using Blanket Purchase Agreements (BPA), 81
percent of task orders that were issued under a BPA reflected better pricing. However,
only 40 percent of the task orders exceeding the Maximum Order Threshold (MOT) and
54 percent of the task orders exceeding $10 million reflected better pricing. As a result,
FSS should continue to assist customer agencies through training and marketing efforts,
particularly in the areas of competition, price issues, and task order type, in order to
improve the ability of contracting officials to effectively award task orders.

Next Steps:

In the future, we expect to conduct additional related audit work in connection with this
survey. This more detailed work will most likely focus on the areas of pricing, MAS
ordering procedures, and cost growth of task orders.

Management Comments:

The FSS Commissioner found the information provided herein to be useful.



                                              i
                                      INTRODUCTION

Background

Procurements of services from the General Services Administration (GSA), Federal
Supply Service’s (FSS) Multiple Award Schedules (MAS) Program have grown
significantly in recent years. In fiscal year (FY) 2000, $6.9 billion in services were
purchased by government agencies under the MAS Program; in FY 2002, $12.7 billion in
services were purchased. This increase is due, in part, to the ease of use of MAS
contracts.

Although MAS services purchases are clearly increasing, a dearth of information exists
regarding the details of these purchases. This is due, in part, to the fact that the Federal
Procurement Data System (FPDS) contains only limited information on purchases under
MAS contracts. The FPDS does not capture, for example, the types of task orders
placed under these vehicles. For MAS contracts, the FPDS captures only the firm fixed
price nature of the overall MAS contract vehicle. In addition, the nature of MAS
contracts themselves leads to difficulties with collecting centralized procurement
information. GSA contracting officials initially negotiate and establish MAS service
contracts (including price and terms and conditions), while ordering agencies actually
award (including negotiating overall order or task price) and administer task orders under
the contracts.

Recently, a number of issues have arisen in connection with MAS services
procurements. Several agencies, including the General Accounting Office (GAO), the
Department of Defense (DOD) Office of Inspector General (OIG), and the National
Aeronautics and Space Administration (NASA) OIG, have performed reviews of
agencies’ use of MAS services contracts, and have concluded that problems in the
areas of competition and pricing exist.1 For example, GAO reviewed DOD information
technology services purchases and concluded that DOD contracting officials were not
seeking competitive quotes; specifically, GAO found that 17 of the 22 information
technology service task orders reviewed (valued at $60.5 million) were placed without
seeking competitive quotes.2

Several recent legislative and regulatory developments also relate to aspects of MAS
services purchases, specifically to the use of time-and-materials task orders for such
purchases. First, the Services Acquisition Reform Act of 2002, H.R. 3832, introduced
last year in the 107th Congress, would have recognized more fully the use of time-and-
materials task orders to purchase commercial services.3 Currently, the Federal
Acquisition Regulation (FAR) discourages the use of such task orders, and GSA Special
Ordering Procedures limit the use of such task orders for services purchases.4 In
1
 DOD OIG Report, Contract Actions Awarded to Small Businesses, D-2003-029, November 25,
2002; NASA OIG Report, NASA Acquisition of Services Using the Federal Supply Schedules,
March 27, 2002.
2
 GAO, Contract Management, Not Following Procedures Undermines Best Pricing Under GSA’s
Schedule, GAO-01-125, November 2000.
3
 The Services Acquisition Reform Act of 2003 was recently introduced in the 108th Congress as
H.R. 1837 since the bill was not approved in 2002. H.R. 1837, like the prior bill, would recognize
more fully the use of time-and-materials vehicles.
4
 The proposed FAR Case 1999-603, which would amend FAR Part 8.4 to include coverage on
ordering services, was issued on April 19, 2003.

                                                1
addition, the use of time-and-materials task orders was raised last summer in connection
with the development of a Defense Federal Acquisition Regulation Supplement to
implement Section 803 of the National Defense Authorization Act of FY 2002.

Objectives, Scope and Methodology

Our objectives in conducting this audit were:

        1) to determine how agencies purchase MAS services, including whether task
        orders are placed on a time-and-materials or firm-fixed price basis, and

        2) to examine other limited aspects of task order awards including whether
        additional discounts are achieved by ordering agency contracting officials.
The scope of our audit included identifying task orders to review; developing and
administering a survey instrument to agencies which placed task orders; reviewing a
number of other audit reports prepared by GAO, DOD OIG, and the NASA OIG; and
holding discussions with officials at GSA, GAO, DOD, NASA, and the Department of
Veterans Affairs (VA).

In order to identify task orders that were the subject of this review, we first obtained
FPDS information for transactions in FY 2001 for all professional services.5 We used
transaction data to arrive at task order data. In the FPDS, a single task order can have
multiple transactions associated with it, including the award of the task order,
modifications, and any orders placed under a multiple award contract. The total
transactions included were 20,906, which represented purchases from 40 agencies.
From this transaction data, we chose all the transactions involving NASA, VA, GSA’s
Federal Technology Service, and DOD. These 4 agencies’ transactions represented
16,341 of the total transactions (78 percent).

From this transaction information, using a random number generator, we selected 5,589
task orders. We examined the data to eliminate multiple or duplicate transactions and to
arrive at and isolate individual task orders. We were not able to determine the total
dollar value represented by these 5,589 task orders because of limitations in the FPDS
transactional data we were working with.6
                                                         Survey Distribution by Agency
We then developed a survey instrument,
which we directed to contracting officials
connected with each of the 5,589 task orders                         NASA
we isolated. These surveys were primarily                              2%
distributed to GSA and DOD, as these                                                                 GSA
agencies are FSS’ largest MAS customers.                                                             37%
Surveys were also distributed to NASA and
VA. Detailed survey results have been
provided to these participating agencies. The DOD
survey, which is attached at Appendix A,          58%
                                                                                       VA
asked questions regarding the nature and
                                                                                                3%

5
  We used the FPDS’ product and service codes to select professional service task orders,
including technology services, professional services, and management support services.
6
  FPDS data reflects only transactions (not task orders) and our sample included only FY 2001
transaction data (while task orders can span several years).

                                               2
value of the task orders, and the overall prices obtained by ordering agencies.

Of the 5,589 distributed surveys, our office received 2,278 responses (41 percent
response rate) from the four agencies. Each individual agency had a response rate of
63 percent or higher, with the exception of DOD.7 However, 33 percent of the total
number of responses was from DOD, with the majority of the responses (56 percent)
originating from GSA. The remaining 11 percent of responses were received from VA
and NASA.
                        Total Responses Received by Agency

                                             NASA
                                              4%
                          DOD
                          33%

                                                                       GSA
                                                                       56%
                                     VA
                                     7%

These 2,278 responses included 1,976 services task orders, totaling approximately $2.4
billion. The remaining 302 orders represented contracting actions for which the
contracting official could not locate task order information (9 percent), or that were
commodity or product orders which were miscoded in the FPDS as services task orders
(5 percent).

Of the 1,976 services task orders, 1,285 (65 percent) represented purchases for
information technology services. These information technology services task orders
totaled approximately $2 billion.
                                    Task Orders – By Type of Service

                                        Unable to
                                        Determine
                                           13%
                   Misc Services
                       22%
       (Engineering,
       Environmental, Training, &                                       IT Services
       Management Services)                                                 65%




Fieldwork was conducted during September 2002 through March 2003. This audit
complies with Generally Accepted Government Auditing Standards.

We expect to conduct additional related work in connection with this survey instrument.
This more detailed work will most likely focus on the areas of pricing, MAS ordering
procedures, and cost growth of task orders.
7
  DOD had a 29 percent response rate. This low response rate may have been partly contributed
to incorrect addresses for contracting officials in FPDS, and our inability to follow up with the
contracting officials.

                                                    3
                                      SURVEY RESULTS

The General Services Administration (GSA) Office of the Inspector General distributed
5,589 surveys to contracting officials in GSA’s Federal Technology Service, the
Department of Defense (DOD), the National Aeronautics and Space Administration
(NASA), and the Department of Veterans Affairs (VA) to obtain information on the
service procurements reflected in the selected task orders. The task orders, together
with the assigned contracting offices, were identified through the Federal Procurement
Data System (FPDS). The survey instrument is included in this report in Appendix A.

The purpose of this survey was to determine whether task orders are typically awarded
based on a “firm-fixed price or ceiling/not to exceed price” basis,8 as well as to obtain
general pricing information pertaining to service procurements from GSA’s Multiple
Award Schedules (MAS) Program. Of the 5,589 surveys our office distributed to
contracting officials in the selected agencies, we received 1,976 responses pertaining to
services task orders, totaling approximately $2.4 billion.9 Only one-third of these orders
were priced on a firm-fixed price basis. Twenty-nine percent reflected prices better than
established GSA prices. Although our survey results show that agencies are not
frequently using Blanket Purchase Agreements (BPA), 81 percent of task orders that
were issued under a BPA reflected better pricing. However, only 40 percent of the task
orders exceeding the Maximum Order Threshold (MOT) and 54 percent of the task
orders exceeding $10 million reflected better pricing. As service procurements continue
to grow, contracting officials need to implement the necessary controls and oversight to
avoid possible cost-growth problems, as well as routinely seek price discounts to ensure
agencies are receiving the best value.


Basis of Pricing for Task Orders:

        Firm-Fixed Price or Ceiling/Not to Exceed Price (Time-and-Materials)
                                                       Task Order Type (Pricing Basis)
The survey asked contracting
officials whether the task orders
they awarded as a whole were                                            Other                Firm Fixed
priced on a “firm-fixed price or                                          2%                    Price
ceiling/not to exceed price”                                                                    32%
basis.10 For those task orders          Ceiling/ Not
priced on a ceiling/not to exceed        to Exceed
                                        Price (Time
basis, the survey further asked         & Materials)
whether the task order involved              65%
                                                                                                 Blank
time-and-materials (for labor                                                                  Response
                                                                                                   1%

8
 For the purposes of this report, we treated the term “ceiling not to exceed price” as synonymous
with “time-and-materials.”
9
 In entirety, our office received 2,278 responses; however, 302 of these orders represented
contracting actions for which the contracting official could not locate task order information or that
were commodity or product orders which were miscoded in the FPDS as services task orders.
10
   We believe some respondents may have misinterpreted this question. The MAS labor rate is a
firm-fixed price rate since it is prenegotiated and loaded with overhead. Officials at other
agencies that helped facilitate our survey indicated that respondents may have answered this
question with reference to the labor rate rather than the overall order.

                                                  4
together with materials) or just labor hours. 11

Sixty-five percent, or 1,274 responses, indicated that the task orders were priced based
on ceiling/not to exceed amounts, with the majority of these responses indicating that the
orders were specifically time-and-materials orders.          Thirty-two percent, or 635
responses, indicated that the task orders were priced on a firm-fixed price basis. The
remaining 3 percent cited other pricing bases or types, or did not answer the question.
The following chart reflects the task order type by agency.12



                      Task Order Type (Pricing Basis) By Agency


                   Firm-Fixed Price   Ceiling/Not to Exceed   Other/Blank Response



                  100%
                                2%          2%           6%        11%
                    80%
                                                        42%
                                           61%
                               75%                                  51%
                    60%

                    40%
                                                        52%
                                           37%                     38%
                    20%       23%

                     0%
                          Agency A    Agency B     Agency C    Agency D




Task Order Pricing:

The survey also solicited certain limited information regarding the pricing of services task
orders. Specifically, the survey asked whether the value of the task order exceeded the
Maximum Order Threshold (MOT) and whether the task order was issued under a
Blanket Purchase Agreement (BPA). The survey also asked whether the order reflected
better pricing than provided for by the GSA MAS rate.13


11
  GSA Special Ordering Procedures (September 2000) allow the use of time-and-materials task
orders only when “it is not possible at the time of placing the order to estimate accurately the
extent or duration of the work or to anticipate cost with a reasonable degree of confidence.” The
procedures also require that a contracting official document this determination in the contract file.
12
     Additional detailed survey results may be made available upon request.
13
  We received several phone calls where contracting officials asked for clarification regarding this
question. Generally, they expressed surprise that better rates could be negotiated under these
task orders.

                                                    5
     GSA Special Ordering Procedures for Services (September 2000) provide that customer
     agencies are responsible for determining whether the overall order price is fair and
     reasonable by considering whether the mix of labor and level of effort are appropriate on
     the work to be conducted. As a practical matter, customer agencies can negotiate lower
     individual labor rates or seek an overall discount on the entire project (task order).


     Obtaining Better Pricing on Task Orders Exceeding the Maximum Order Threshold

     The MOT is an amount established by GSA contracting officials and represents the point
     at which it is advantageous for ordering agencies to seek better prices from GSA
     vendors. The MOT for the
     majority     of    professional Task Orders Exceeding the Maximum Order Threshold
     services contracts is from
     $500,000      to  $1    million.                                              Obtained
     Although contractors are not           Don't Know                          Better Pricing
     required to provide these                 41%                                   40%
     further discounts, customers
     should attempt to negotiate for
     lower prices.

     In our sample, 388 task orders
     exceeded the MOT. Only 40
     percent of these task orders                              Did Not Obtain
                                     14
     reflected    better    pricing.                            Better Pricing
                                                                    19%
     Since GSA determines that the
     contract price is fair and reasonable for orders below the MOT, contracting officials
     should negotiate for additional price discounts on orders exceeding the MOT.


                  Using Blanket Purchase Agreements to Obtain Better Pricing

       In an effort to assist contracting officials in negotiating better prices for large volume
                                                                    purchases,         FSS       is
                        Pricing on Task Orders
                                                                    encouraging           customer
                Under Blanket Purchase Agreements
                                                                    agencies to negotiate for
                                                                    additional discounts through
                                Blank Response
                                                                    BPAs.       BPAs negotiated
                Don't Know
Did Not Obtain     13%                 1%                           under    MAS    contracts are
 Better Pricing                                                     appropriate     in   instances
       5%                                                           where an ordering agency
                                                                    anticipates making repetitive
                                                                    purchases. Because agency
                                                                    customers can specify a
                                                                    certain – usually large –
                                               Obtained Better      volume of sales, such
                                               Pricing              agencies are often able to
                                                  81%
                                                                    negotiate better pricing. In
       addition to better pricing, agencies using BPAs can simplify the acquisition process and
     14
       We believe there is some confusion among contracting officials regarding MOTs. Although
     MOTs for services contracts are generally $1 million or less, for those orders that exceeded $1
     million, 38 percent of the responses indicated that the task orders did not exceed the MOT.

                                                     6
reduce the administrative effort needed to award orders within their organization. Of the
task orders we examined, 287 indicated that the orders were part of a BPA. Of the total
orders placed under BPAs, 81 percent indicated that better pricing was obtained.
Twenty-nine percent of the task orders that exceeded $10 million were a part of a BPA
and all of these orders reflected better pricing. BPAs can assist contracting officials in
negotiating better price discounts by providing them with a tool to leverage their
purchasing power.


                              Pricing with Large Dollar Task Orders

Of the total orders we examined, 48 exceeded $10 million. Of these orders exceeding
$10 million, better pricing was obtained on 54 percent. Similar to BPAs, contracting
officials can leverage their purchasing power to obtain lower prices for task orders with
large dollar values.




                      Pricing On Task Orders Exceeding $10 Million


                              Don't Know
                                 19%




                                                                              Obtained Better
                                                                                  Pricing
            Did Not Obtain                                                          54%
             Better Pricing
                  27%




                                           CONCLUSION

In conducting our multi-agency sample of 1,976 task orders, we learned that only one-
third of the total task orders were firm-fixed price. Due to the potential cost-growth
problems associated with ceiling/not to exceed price (time-and-materials) orders, we feel
that contracting officials need to ensure that these vehicles are really appropriate for
their orders and that adequate oversight is provided over these orders.15 Contracting
officials should also make proper justifications, with accompanying documentation, when
using these vehicles.

In addition to cost control, our office is concerned with pricing practices for MAS task
orders. Contracting officials should routinely seek price discounts, especially as the
dollar value of the task orders increases. Of the task orders that exceeded the MOT, 40
percent obtained better pricing. Also, while 81 percent of the task orders under BPAs
15
   Contracting officials may need to consider, for example, awarding subsequent work on a firm-
fixed price basis, or converting a contracting effort to a firm-fixed basis once some initial work is
accomplished.

                                                  7
involved better pricing, only 54 percent of the task orders over $10 million obtained
better pricing. Therefore, FSS should continue to assist customer agencies through
     Pricing Discounts Obtained by Task Order Size                     training and marketing
                                                                       efforts, particularly in the
     Received Better Pricing Used GSA Price Don't Know /Blank Response
                                                                       areas of competition,
                                                                       price issues, and task
                                                                       order type, in order to
       100%
                                                                       improve the ability of
        90%                                                            contracting officials to
                29%        27%  27%     38%   57%       19%
        80%                                                            effectively award task
        70%                                             27%            orders.
           60%
           50%
                       45%          44%         45%           29%
           40%
                                                                           13%
           30%
           20%          25%                      28%         33%            30%            54%
                                    29%
           10%
            0%

                  00            00              00           00           00          00
                ,0         0 ,0            0 ,0           0,0          0,0         0,0
               0                                         0           0
              0          50             00          5,
                                                       0
                                                                 0,
                                                                    0          ,0
                                                                                  0
           $1         0-             1,           0-                        10
        an         ,00           00-             0            0-1          $
      Th         00          0,
                               0              ,0            00          ve
   ss          $1         50               00             0,         bo
  e                     $             1 ,0           , 00         A
 L                                  $              $5




                                                 MANAGEMENT COMMENTS

The FSS Commissioner’s response related that they found the report to be useful and
are, themselves, having a study done at how agencies are using the MAS program.


                                                  MANAGEMENT CONTROLS

Since our audit objective focused on how customer agencies purchase services and
obtain price discounts from the Multiple Award Schedules Program, we did not review or
test the Federal Supply Service’s management controls.




                                                                               8
APPENDICES
  AUDIT OF PROCUREMENT OF PROFESSIONAL
SERVICES FROM THE FEDERAL SUPPLY SERVICE’S
        MULTIPLE AWARD SCHEDULES
     REPORT NUMBER A020243/F/A/V03009

         CUSTOMER QUESTIONNAIRE
  AUDIT OF PROCUREMENT OF PROFESSIONAL
SERVICES FROM THE FEDERAL SUPPLY SERVICE’S
        MULTIPLE AWARD SCHEDULES
     REPORT NUMBER A020243/F/A/V03009

         CUSTOMER QUESTIONNAIRE




                   A-2
  AUDIT OF PROCUREMENT OF PROFESSIONAL
SERVICES FROM THE FEDERAL SUPPLY SERVICE’S
        MULTIPLE AWARD SCHEDULES
     REPORT NUMBER A020243/F/A/V03009

      FSS COMMISSIONER’S RESPONSE
               AUDIT OF PROCUREMENT OF PROFESSIONAL
             SERVICES FROM THE FEDERAL SUPPLY SERVICE’S
                     MULTIPLE AWARD SCHEDULES
                  REPORT NUMBER A020243/F/A/V03009

                          REPORT DISTRIBUTION



Commissioner, Federal Supply Service (F)……………………………………………… 3

Office of the Chief Financial Officer (B)………………………………………………….. 2

Audit Follow-up and Evaluation Branch (BECA)………………………………………..          1

Assistant Inspector General for Auditing (JA, JAO, JAN and JAS)…………………… 4

Assistant Inspector General for Investigations (JI)……………………………………..    1




                                    C-1
